<html>
<title> - US-VISIT: CHALLENGES AND STRATEGIES FOR SECURING THE U.S. BORDER</title>
<body><pre>[Senate Hearing 110-20]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-20
 
    US-VISIT: CHALLENGES AND STRATEGIES FOR SECURING THE U.S. BORDER

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON TERRORISM,
                    TECHNOLOGY AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 31, 2007

                               __________

                           Serial No. J-110-6

                               __________

         Printed for the use of the Committee on the Judiciary





                      U.S. GOVERNMENT PRINTING OFFICE
34-148 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                 DIANNE FEINSTEIN, California, Chairman
EDWARD M. KENNEDY, Massachusetts     JON KYL, Arizona
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         JOHN CORNYN, Texas
RICHARD J. DURBIN, Illinois          SAM BROWNBACK, Kansas
BENJAMIN L. CARDIN, Maryland         TOM COBURN, Oklahoma
                      Jennifer Duck, Chief Counsel
               Stephen Higgins, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
    prepared statement...........................................   107
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
    prepared statement...........................................   109
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................   111

                               WITNESSES

Barth, Richard C., Assistant Secretary, Office of Policy 
  Development, Department of Homeland Security, Washington, D.C..     5
Bond, Phillip J., President and Chief Executive Officer, 
  Information Technology Association of America (ITAA), 
  Arlington, Virginia............................................    18
Mocny, Robert A., Acting Director, US-VISIT, Department of 
  Homeland Security, Washington, D.C.............................     7
Stana, Richard M., Director, Homeland Security and Justice 
  Issues, Government Accountability Office, Washington, D.C......    16
Verdery, C. Stewart, Jr., Partner and Founder, Monument Policy 
  Group, LLC, and Adjunct Fellow, Center for Strategic and 
  International Studies, Washington, D.C.........................    19

                         QUESTIONS AND ANSWERS

Responses of Richard C. Barth and Robert A. Mocny to questions 
  submitted by Senators Cornyn, Kennedy, Sessions and Feinstein..    29
Response of Phillip J. Bond to a question submitted by Senator 
  Kennedy........................................................    77
Responses of Richard M. Stana to questions submitted by Senator 
  Kennedy........................................................    78
Responses of C. Steward Verdery, Jr. to questions submitted by 
  Senator Kennedy................................................    81

                       SUBMISSIONS FOR THE RECORD

Barth, Richard C., Assistant Secretary, Office of Policy 
  Development, and Robert A. Mocny, Acting Director, US-VISIT, 
  Department of Homeland Security, Washington, D.C., statement...    86
Bond, Phillip J., President and Chief Executive Officer, 
  Information Technology Association of America (ITAA), 
  Arlington, Virginia, statement.................................    96
Clawson, Greg, Regional Manager, Motorola Enterprise Mobility 
  Government Business Solutions, statement.......................   102
Koslowski, Rey, Associate Professor of Political Science and 
  Public Policy, Rockefeller College of Public Affairs and 
  Policy, University at Albany, State University of New York 
  (SUNY), Albany, New York, statement............................   114
Stana, Richard M., Director, Homeland Security and Justice 
  Issues, Government Accountability Office, Washington, D.C., 
  prepared statement.............................................   133
Verdery, C. Stewart, Jr., Partner and Founder, Monument Policy 
  Group, LLC, and Adjunct Fellow, Center for Strategic and 
  International Studies, Washington, D.C., statement.............   164


    US-VISIT: CHALLENGES AND STRATEGIES FOR SECURING THE U.S. BORDER

                              ----------                              


                       TUESDAY, JANUARY 31, 2007

                                       U.S. Senate,
          Subcommittee on Terrorism, Technology and
                                 Homeland Security,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:37 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, Chairman of the Subcommittee, presiding.
    Present: Senators Feinstein, Kennedy, Cardin, and Cornyn.

OPENING STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM 
                    THE STATE OF CALIFORNIA

    Chairman Feinstein. This meeting of the Subcommittee will 
come to order.
    Senator Kyl, who is the Ranking Member of the Subcommittee, 
is not able to be present due to the press of other duties. I 
believe he is on the floor. So the ranking position will be 
occupied fully and completely by Senator Cornyn of Texas. We 
are delighted to have you here.
    The Subcommittee today will be dealing with a program that 
is not without its controversy, namely, the US-VISIT Program. I 
have long been very concerned about the interplay between 
immigration and national security. I believe that we will not 
be able to protect our Nation effectively until we can protect 
our borders. I do believe we need to know who is coming in and 
out of our country.
    The congressional mandate to create a system for tracking 
who enters and leaves this country was first codified in 1996 
with a deadline of establishing a workable program by September 
30, 1998. To the best of my knowledge, that is 8 years ago. 
Since that time, Congress has extended the deadline over and 
over. Time and time again, we have sacrificed our border 
security because of inaction or slow action by the Federal 
Government.
    According to the 9/11 National Commission Staff Report on 
Terrorist Travel, prior to 9/11, no agency of the U.S. 
Government thought of border security as a tool in the 
counterterrorism arsenal. 9/11 and its subsequent actions have 
made this goal a priority and have exposed our country's 
vulnerability. Yet over 5 years later, the Federal Government 
has failed to devote sufficient time, technology, personnel, 
and resources to making border security a cornerstone of our 
national security policy.
    In 2003, 5 years after its first deadline in 1998, the 
Department of Homeland Security created the US-VISIT Program to 
implement an automated system for documenting entry and exit by 
capturing biometric information. US-VISIT is an important 
program that has done a decent job of monitoring the entry of 
the millions of visitors into the United States. But there is 
so much more work to be done.
    Today, over 10 years after the initial congressional 
mandate, we do not have a reliable means of measuring who 
leaves our country. We are here today to examine the challenges 
of implementing a workable system.
    DHS--Homeland Security--has essentially declared that the 
exit program is dead as far as land borders are concerned. This 
is a serious problem. There are over 425 million border 
crossings at U.S. borders every year. Because we do not know 
who is leaving the country, we do not know who of these 425 
million is overstaying a visa versus who is playing by the 
rules. We do know that in 2004 there were 335.3 million 
crossing at land ports of entry. About 4.6 million people who 
crossed by land were eligible for US-VISIT screening. And we 
have no way of knowing whether any of those 4.6 million ever 
left the country. Think about that. We do not know whether 4.6 
million people here on a visa, whatever that visa is, ever 
really followed the visa regulations and left the country.
    I understand that the 4.6 million people subject to US-
VISIT screening at land ports is only a fraction of the total 
number crossing each year. I also understand the argument that 
more US-VISIT-eligible persons come into our country via 
airports than by land. This argument, though, does not convince 
me that we should shelve the exit program at the land border. I 
think we have got to take seriously that we have left a gaping 
hole in our country's border. Anyone coming in by air or sea 
could leave undetected by way of one of our 170 land ports of 
entry on more than 7,500 miles of border with Canada and 
Mexico. By failing to address exits at all ports, we are 
providing a blueprint to those who wish to harm the United 
States. Without implementing a comprehensive exit and entry 
system at all of our ports, we are leaving ourselves vulnerable 
to another attack.
    The biggest problem here is that we still have not heard a 
sufficient explanation from the Department of Homeland Security 
as to the challenges--or I should say the failure--to implement 
an exit program at all ports. The New York Times reported that 
Homeland Security claims that an exit program would cost tens 
of billions of dollars to implement, but we have yet to see a 
breakdown of these costs or a good-faith explanation of what is 
at stake here.
    Homeland Security has failed to meet their June 2005 
statutory requirement to submit a report to Congress 
describing, one, the status of biometric exit data systems 
already in use at ports of entry; and, two, the matter in which 
US-VISIT is to meet the goal of a comprehensive screening 
system with both entry and exit biometric capability.
    I must say I am very disappointed that the Department of 
Homeland Security, this huge Department, has failed to submit 
this report, and I call upon them to expedite this report to 
the Congress. So today, I hope we can have a very candid, 
honest discussion of how we can implement a workable entry-exit 
system.
    I would also like to just indicate that the National 
Sheriffs Association is represented here by their general 
counsel, Richard Weintraub, and I want them to know that we are 
delighted to have you join us in the audience.
    [The prepared statement of Senator Feinstein appears as a 
submission for the record.]
    And now, if I may, I would turn it over to the Ranking 
Member, Senator Cornyn.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Chairman Feinstein, and I 
appreciate very much your convening this hearing, and also 
Senator Leahy for scheduling this hearing. This is an important 
program.
    As we move forward with our debate about immigration reform 
and how to solve our Nation's immigration crisis, we all 
recognize the importance of an immigration enforcement system 
that enhances the security of our citizens and visitors to the 
United States. No enforcement system, however, should be 
adopted without assessing the impact it will have on legitimate 
travel and trade to the United States. Our Nation's security is 
paramount, to be sure, but trade, especially with our partners 
on the Northern and Southern borders, is critical to the health 
of our economy.
    The US-VISIT Program is one component of an overall border 
and interior enforcement strategy. Since its inception in 2004, 
the Department of Homeland Security has made significant 
progress in phasing in implementation of the program at air, 
sea, and land borders. And I want to specifically congratulate 
the Department. I know they receive few kudos and more than a 
few arrows, but this is one program that I think was very well 
implemented in consultation with local stakeholders. And it was 
an important part of the rollout process to do that, and I 
think we should give credit where credit is due.
    But DHS must continue working hard to ensure that it 
continually receives the input of the public and interested 
stakeholders on any expansion efforts, such as officials along 
the Texas border.
    I remain concerned about the effect of the US-VISIT program 
on Southern border communities. According to DHS, the US-VISIT 
entry technology has been installed at most air and sea ports 
and in secondary inspection areas at 154 land borders. The 
Texas border region already has felt the effects of increased 
security screening. Southern border businesses and officials 
are concerned with the increased delays at border crossing 
checkpoints and the impact of delays on the local economy. As 
we continue working toward additional security measures, we 
need to develop a quick and efficient process to identify those 
who may be a threat to our national security, while allowing 
legitimate, law- abiding travelers to enter and exit the United 
States in a timely manner.
    One significant initiative to facilitate trade and travel 
on the Southern border is the border crossing card. I have 
introduced yesterday a new bill, S. 422, which will actually 
permit Mexican nationals who hold laser visas and who have 
already undergone rigorous background screening by the State 
Department and the Department of Homeland Security to remain in 
the United States for an initial period of up to 6 months. The 
bill allows for expedited entry into the U.S. while at the same 
time maintains the strong border enforcement process. It also 
ensures that commerce on the Southern border remains strong and 
viable, notwithstanding any new enforcement measures that DHS 
will put into place.
    Now, just a footnote to say that this legislation would 
merely establish parity with visitors from Canada, and I think 
it is an appropriate goal for this Nation ultimately, by the 
use of technology, to treat all of our guests and lawful 
visitors exactly the same, without any discrimination.
    DHS has indicated that the US-VISIT entry process has been 
beneficial, especially in terms of identifying criminals, 
people who commit identity theft, and immigration violators. 
DHS, however, also acknowledges that it needs additional 
resources and personnel to improve the existing entry process. 
If we are going to be a welcoming Nation to lawful trade and 
traffic, we ought to make that as easy as possible, consistent 
with security efforts, while we spend whatever it takes to 
secure our borders against those who attempt to enter our 
country in violation of our laws.
    So we will need to continue to work with DHS to make sure 
that it gets the help that it needs in order to make the system 
successful.
    As Senator Feinstein has noted, DHS has recently announced 
it would delay implementation of the exit procedures at land 
borders, in part due to the potentially significant delays in 
the flow of cross-border traffic and the significant resources 
it will take to expand existing infrastructure and systems 
communications that are needed for the US-VISIT process to work 
effectively.
    Of course, I share Senator Feinstein's concerns, but I do 
note that at this point we have not thought far enough ahead to 
determine what it is we would actually do with that information 
if we were to capture it and whether there would be sufficient 
ICE agents necessary to actually enforce overstays. It is a 
significant problem, but I think it needs to be addressed in 
the context of overall border security and immigration reform, 
and perhaps not as a stand- alone issue.
    DHS should continue to explore various strategies for 
improving the ability to capture traveler biometrics and entry 
and exit information. With the movement to create a single, 
secure biometric and machine-readable travel card, like the e-
Passport, DHS should work with industry leaders and 
stakeholders to determine how the latest technologies, such as 
radio frequency identification technology, can best be 
incorporated into travel and entry-exit documents. DHS also 
needs to complete its law enforcement systems integration, 
which is a cornerstone of any successful law enforcement 
strategy.
    With these improvements and with the support of the 
Congress, we will eventually be able to have an integrated 
entry-exit process that protects our Nation's security and 
facilitates legitimate travel to and from the United States.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Senator.
    I would like to introduce the witnesses of panel one.
    The first will be the Honorable Richard Barth, Assistant 
Secretary for the Office of Policy Development, Department of 
Homeland Security. He has been the Assistant Secretary for this 
office since August 26th of 2006. He is the principal action 
officer for coordinating policy among DHS entities, as well as 
with State and Federal agencies and foreign governments. Prior 
to this, Assistant Secretary Barth was Corporate Vice President 
and Director, Homeland Security Strategy, for Motorola's 
Government Relations Office in Washington.
    The other witness is Robert Mocny, the Acting Director of 
US-VISIT, who is on the hot seat today. Mr. Mocny is Acting 
Director of US-VISIT. He is responsible for the day-to-day 
operations of US-VISIT, including managing the development and 
deployment of the program. Over the course of his career, he 
has served in several senior Federal Government positions 
related to U.S. immigration policy and operations, including 
director of the Entry-Exit Project and Acting Assistant 
Commissioner and Assistant Chief Inspector with the former INS, 
Immigration and Naturalization Service.
    Welcome, gentlemen. What we usually do at these hearings is 
you will have a time limit of 5 minutes, and that way Senator 
Cornyn, and I hope other members, will have a chance to ask you 
additional questions. So please proceed.

 STATEMENT OF RICHARD C. BARTH, ASSISTANT SECRETARY, OFFICE OF 
     POLICY DEVELOPMENT, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Barth. Chairman Feinstein and Ranking Member Cornyn, 
thank you for taking the time and inviting us here to discuss 
the efforts of the U.S. Department of Homeland Security to 
record the exit of non-citizens as they leave the United 
States.
    It is one of DHS' missions to modernize and improve our 
immigration and border management systems, and biometric exit 
control is a key component of fully securing our Nation's 
borders. Our first priority, though, given that we do not have 
unlimited resources, is to fully implement ten-fingerprint 
collection of non-citizen travelers as visa-issuing ports 
around the world and upon entry to the U.S. Secretary Chertoff 
has made it clear many times that keeping terrorists out of the 
country is the priority as we make decisions for the prudent, 
risk-based investment of the border control dollars we have. 
Yet the challenge for border security is to implement a well-
planned exit solution to assist us in closing the door on those 
individuals who pose an overwhelming risk of entering or 
remaining in the United States undetected.
    As you can imagine, the deployment of a comprehensive exit 
solution poses significant challenges. First, we must address 
three very different border environments: air, sea, and land. 
Second, the United States has almost always had some form of 
entry inspection, and over time, infrastructure developed to 
support that entry process. U.S. international airports have 
customs inspection booths near the baggage claim areas for 
arriving international passengers. Seaports serving 
international cruise lines provide terminal-based customs 
inspection. The number of lanes processing vehicular traffic 
and pedestrian entry inbound is constantly expanding. But not 
one of these ports was designed to accommodate exit control.
    Unlike the entry process, there are only limited facilities 
to process international travelers as they leave the United 
States. In fact, the aerial photograph that we have displayed 
over here, Chairman Feinstein and Ranking Member Cornyn, I 
think vividly shows the striking difference between entry and 
exit infrastructure at the largest land border port of entry--
San Ysidro, California, which I will discuss in more detail in 
a moment. And, finally, an exit solution presents not only an 
infrastructure challenge but, equally important, a fundamental 
change in the business process of travelers who are departing 
the United States.
    Accordingly, DHS proposes a phased deployment of exit in 
the three environments of air, land, and sea, with an initial 
focus on air. We are beginning at airports primarily to focus 
on travelers from countries of interest, 91 percent of whom 
arrive in the United States via air. It is absolutely essential 
for us to know what travelers from these countries have 
complied with the terms of their admission. We will, of course, 
work closely with our Government and private sector partners to 
deploy the most viable option for air exit. We are already in 
dialog with the airline industry on the options to deploy 
biometric exit at airports.
    After deploying exit procedures at airports, we will begin 
deploying a solution to seaports based on the air solution. And 
this brings us to our most significant challenge: deploying an 
exit solution at the land border. Biometric confirmation of the 
departure of travelers via land ports is significantly more 
complicated and costly than the air and sea environments. Using 
the aerial photograph of San Ysidro, I would walk you through 
the two different variations of the entry and exit. On the left 
is the entry, and on the right is the exit from the U.S.
    San Ysidro is the largest entry-exit land border port for 
travelers entering or leaving the United States, with 25 lanes 
for vehicular entry traffic and only about 4 for exit traffic. 
Simply duplicating biometric, biographic collection of data 
upon departure will not work. It would require costly 
infrastructure improvements, land acquisition costs, and 
staffing for additional lanes of traffic over multiple shifts.
    I could go into the cost of wait times for the public to 
cross the border, but in the interest of time, I will rely on 
the written testimony we have provided to give you those 
details.
    As I said, while the challenges are significant, they are 
not insurmountable. There are ways to approach a land border 
exit solution, and we intend to pursue them. We are closely 
monitoring technology solutions that could help resolve the 
land border challenges without the extraordinary infrastructure 
investment that otherwise would be required.
    An interim solution for exit data collection at the land 
border could also involve the cooperation of Canada and Mexico. 
Such cooperation could include agreements between our countries 
to share data on an as-needed transactional basis between our 
systems. We will explore that option to more quickly obtain 
good data on departing aliens.
    The Department takes seriously the issue of protecting the 
privacy of non-citizens travelers also. Our written testimony, 
again, goes into some detail on attention to privacy as well as 
accessibility issues.
    In conclusion, a comprehensive exit solution for the United 
States requires the administration and Congress to collaborate 
closely on finding the best, cost-effective solutions for each 
environment. We will meet this challenge with a set of policies 
and processes that provide our decisionmakers with flexible 
solutions.
    Thank you for this opportunity to testify, and we look 
forward to answering your questions.
    [The prepared statement of Mr. Barth appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Dr. Barth.
    Mr. Mocny?

   STATEMENT OF ROBERT A. MOCNY, ACTING DIRECTOR, US-VISIT, 
       DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Mocny. Chairman Feinstein, Ranking Member Cornyn, thank 
you for inviting me to discuss the operations of the US-VISIT 
Program, which has just marked its third anniversary. In those 
3 years, US-VISIT has significantly strengthened our Nation's 
immigration and border security capabilities to a level that 
simply did not exist before. I am proud of our dedicated team 
of professionals who are working hard to solve some difficult 
challenges that face our Nation. And I am proud that many are 
supportive of the program's progress. For example, some 
governments expressed apprehension when we first launched the 
program. Now many of those same governments are seeking our 
expertise as they work to establish their own biometrics-based 
border management programs. US-VISIT has clearly become the 
standard for the rest of the world.
    The background of US-VISIT is our innovative use of 
biometrics, which enhances our capacity to know definitively 
who is coming into our country and to crack down on fraudulent 
document use. With biometric identification technologies at its 
base, US-VISIT has revolutionized our ability to verify that 
travelers are who they say they are and do not pose a risk to 
the United States.
    US-VISIT also provides immigration and law enforcement 
decisionmakers with critical information when they need it and 
where they need it. But perhaps the best way to evaluate the 
success of US-VISIT is to look at what we have achieved against 
our four goals, and those are: to enhance the security of our 
citizens and our visitors, to facilitate legitimate travel and 
trade, to ensure the integrity of our immigration system, and 
to protect the privacy of our visitors.
    In terms of enhancing security, since January of 2004 we 
have processed more than 76 million visitors and in that time 
have intercepted approximately 1,800 immigration violators and 
people with criminal histories based on the biometric alone. 
US-VISIT also provides the infrastructure for the State 
Department's BioVisa Program, which consular officials use when 
they process a person applying for a visa to the United States. 
Biometrics are also depriving potential terrorists of one of 
their most powerful tools--the ability to use fraudulent or 
stolen identification documents to enter the country. This 
means that biometrics also protect travelers by making it 
virtually impossible for anyone else to claim their identifies 
should their travel documents be lost or stolen.
    US-VISIT also tracks and records changes in immigration 
status and matches entry and exit records to determine 
overstays. ICE officials, Immigration and Customs Enforcement, 
have made more than 290 arrests based on US-VISIT overstay 
information. US-VISIT uses and maintains the Arrival and 
Departure Information System, or ADIS, which has grown to be 
the definitive immigration status system that provides overstay 
information for subsequent action.
    Regarding our second goal, facilitating legitimate travel 
and trade, US-VISIT's biometric-based capabilities, while 
enhancing security, have not increased wait times at our ports 
of entry. US-VISIT has also strengthened the integrity of our 
immigration system, our third goal. We continue to work with 
the FBI to achieve interoperability between their fingerprint 
data base and DHS'. We are piloting a program that will provide 
Federal, State, and local law enforcement officers biometric-
based access to criminal and immigration information.
    We are also moving from a collection of a two-fingerprint 
to a ten-fingerprint standard. This will help us collect more 
accurate and actual information on those attempting to enter 
our country. But we also recognize that keeping bad people out 
is not enough. We must ensure that those few people who remain 
in the country as a threat to our Nation's security do not go 
undetected.
    This brings me to perhaps our greatest challenge: the 
development of biometric exit procedures that address our goals 
of security and facilitating legitimate travel and trade at 
those three very different environments--air, sea, and land. 
Over the past 2 years, we have been evaluating new and evolving 
technologies that allow us to definitively know when a traveler 
has left the country. Through pilot programs at 14 air and sea 
ports, we have learned that a technology to record a traveler's 
departure does, in fact, work. But to be most effective, it has 
to be integrated into the existing travel process. We have 
already reached out to the travel industry to identify the best 
way to integrate exit procedures into the traveler's current 
airport experience.
    The land border poses its own challenges. Assistant 
Secretary Barth adequately explained those challenges, but you 
should know that we have been pursuing possible solutions there 
as well. US-VISIT recently completed a test of radio frequency 
identification, or RFID, technology at five land border ports 
of entry, proving that vicinity-read RFID technology is a 
viable solution to meet the multiple challenges of the land 
border environment. But as cited in the recent GAO report and 
our own findings, more work needs to be done.
    Finally, we are achieving our mission without compromising 
our fourth goal of protecting the personal privacy of our 
visitors. Privacy is a part of everything that we do, and it is 
essential to our mission. But US-VISIT's job is not done. 
Challenges remain, especially regarding the solution to exit 
procedures. We have proven the skeptics wrong in the past, and 
we believe we can do it again going forward.
    Thank you again for your support and for the opportunity to 
testify here today.
    Chairman Feinstein. Thank you very much, both of you.
    We appreciate it.
    It is my understanding that at least a third of visa 
holders do not leave the United States. So the looser the 
system we have, the more visa holders we are going to have who 
do not leave, the more you add to the numbers of undocumented, 
and the more you make any reform of immigration more difficult. 
I think the economic arguments that are made really have to 
deal with that factor.
    The numbers are only going to grow, so the importance of 
developing an exit program I think is really there. And I 
travel. I get visas. The other governments know when we leave 
the country. But the bigger you get, the harder it is going to 
be. And I think you ought to develop some system. I have gone 
in and out of San Ysidro. This is my backyard. There is no 
problem going out. And you look at that photo, and that shows 
it right there. The lane leaving the United States is vacant. 
Coming into the United States is where there are a lot of cars. 
So, in a way, that to me countermands what you are saying. It 
seems to me we could have an exit land program that would work.
    Is it true that you have suspended work on an exit system, 
Mr. Mocny?
    Mr. Mocny. No, Chairman Feinstein, we have not abandoned 
exit in any way. In fact, we are pursuing both the air and sea 
exit this very year and beginning to look at the challenges 
that we continue to face at the land borders. But we have not--
and I want to correct the record that has been out there for 
some time. We have not abandoned our move toward exit control.
    Chairman Feinstein. OK. GAO notes that Homeland Security 
has discontinued testing of its radio frequency identification 
system at the land borders. Is this true?
    Mr. Mocny. We concluded a proof of concept, and so we were 
very clear to call it not a pilot or something that we were 
going to put out there--
    Chairman Feinstein. No, let me--my question is very 
carefully phrased. Have you discontinued testing of the radio 
frequency identification system?
    Mr. Mocny. Yes, ma'am.
    Chairman Feinstein. Now you can go ahead and answer the 
rest of it.
    Mr. Mocny. Thank you. We had a proof of concept. It was 
always designed to be put up and then brought down. The idea 
was to look at what technologies might afford us to have a 
viable exit program at the land borders. So we had a very 
clearly defined--and one thing with US-VISIT is that we 
practice what I believe to be good project management, which is 
we have a beginning and an end to anything that we put out 
there to be able to evaluate that. So we had a proof of concept 
with a beginning and an end portion to that, with the idea to 
evaluate that and take it to its next level to see where would 
we go with that. And what we identified was where there were 
certain challenges with that proof of concept.
    Chairman Feinstein. OK. Are you currently testing any 
alternative means of tracking who leaves the country?
    Mr. Mocny. We currently have the 14 air and sea pilots that 
we have, but we do not have any testing at the land ports of 
entry.
    Chairman Feinstein. All right. So there is no testing going 
on. So as I interpret all of that, effectively the exit program 
has been stopped. Nothing is moving ahead, so I conclude it 
stopped. Am I wrong?
    Mr. Barth. Chairman Feinstein, you are correct in 
concluding that any physical activity by people to test 
systems, to implement, to do something at the land borders is 
going on. There is nothing there. You are correct. However, the 
planning to do something that is efficacious, cost-effective, 
and real to plug the holes that we are all in agreement need to 
be plugged for controlling our exit at the borders is very 
actively underway.
    When we hopefully in the very near future send to you our 
strategies for the 2007 spend plan and budgets, et cetera, you 
will be able to see in a better level of detail the kinds of 
things we will be doing to actively pursue air exit, air bio-
exit technologies, and implement them, actively pursue them at 
sea, and actively find the technological solution that we truly 
believe is out there to solve the problem that we see here.
    We cannot do--in our Department's completely agreement 
throughout, we cannot do a mirror image of that and block up 
traffic going out of the country like it is blocked up there 
coming in without costs that are astronomical. That border 
control station you see there that is causing all that blockage 
is a very old--
    Chairman Feinstein. The blockage is coming into the 
country, sir.
    Mr. Barth. It is all coming in. And if we tried to put 
biometric exit data capture going out, we would have to have a 
similar number of lanes, we would have to have similar 
staffing, and we would see back-ups like you see coming in. And 
just to the point of the costs of those buildings there that 
the U.S. Government owns, the Congress has already approved and 
has half-funded a $500 million upgrade and replacement of those 
facilities. So the cost of doing that on the outbound lanes, we 
have a good data point. Maybe it is only one, but it is a very 
good one. At your backyard to do what we are doing incoming 
with biometric exit outgoing would cost $500 million, not 
including the land acquisition costs and not including the 
staffing costs.
    Chairman Feinstein. You know, I guess I have been around 
here for almost 15 years now. I mean, this to me is the typical 
bureaucratic argument: ``We cannot do it because it costs too 
much, therefore...'' I mean, we cannot even get a report that 
was due in 2005.
    I guess what I want to say, that is in my State. I care 
about it. I care about this issue. I think this is a soft 
underbelly of this country not to know that people ever leave. 
Virtually everybody that came into this country to do us harm 
so far came in on a visa. We have no way to know that people 
leave this country by way of a land border. And that ought to--
I mean, how many employees does Homeland Security have, 
250,000? How many--what?
    Mr. Barth. Not quite.
    Chairman Feinstein. An awful lot. It would seem to me that 
if this is a priority--and my view is to make it a priority--
you would adjust priorities within this huge megalopolis of 
yours and be able to deal with it.
    So I have just got to tell you, I do not accept reasons, 
well, the building is going to cost X and this is going to cost 
Y. You came up here with something that shows that this could 
be done at San Ysidro with some ease because there are no cars 
on the road leaving. And I will just leave it at that. I think 
this is a real national security issue, and hopefully somehow 
that will get through. So thank you very much.
    Senator, your turn.
    Senator Cornyn. Thank you, Senator Feinstein.
    Gentlemen, I want to pick up on the matter of overstays. 
The latest statistic I have seen indicates that 45 percent of 
the illegal immigration in this country results not from people 
who have entered illegally but from people who have entered 
legally and overstayed. In other words, 55 percent have come 
across the border without a visa; 45 percent have come in with 
a visa, but have simply overstayed.
    And I guess that gets to my question, Mr. Mocny, to you. 
You indicate, if I heard you correctly in your statement, that 
ICE--Immigration and Customs Enforcement--has arrested 290 
people for visa overstays. And so I guess the next question is 
obvious. That is just a fraction of the number of people who 
come in legally but overstay their visa.
    Can you speak to what we need to do as a Nation to make 
sure that we can actually deal with everyone who overstays 
their visa, ultimately?
    Mr. Mocny. Well, I think having a viable exit program will 
begin to address that. The information that we provide to the 
ICE agents is culled from many different systems. It is 
corroborated by the biometric systems that we have at the 12 
airports, and so we can produce on a daily basis reports to ICE 
that have people who have definitively been overstays and 
actually checked out with the biometric. That is called a 
``confirmed overstay.'' That record is then flagged for any 
time they may want to get another visa or try to come back 
under the Visa Waiver Program. They would be prevented from 
doing so.
    But we also have many unconfirmed overstays, and those are 
people where this ADIS system, as I described earlier, sends an 
automatic trigger to our unit, the Data Integrity Group, that 
culls through that information and says this person is a 
possible or unconfirmed overstay. We then have to go through 
many other multiple systems to make a determination whether or 
not that person did, in fact, leave. And, of course, they go 
through I-94 information, the boarding card that they get upon 
arrival. That is a separate system that we have to go into. And 
then they would have to also consider the land border departure 
as well.
    And so, clearly, this speaks to, in fact, why we have not 
abandoned exit. We believe that exit has to occur in order to 
close this gap, but we do not have that. This is the first time 
in many years that we have been able to actually make arrests 
on overstays based on an automatic trigger of that person's 
immigration record. In the past it has been because of some 
work site enforcement and it was later determined that they 
were an overstay. But this sends an automatic signal to ICE.
    I will grant you it is far from being as many as we would 
like it to be, but it is much further than we have been before.
    Senator Cornyn. Well, I will grant you both that birds have 
come home to roost due to many, many, many, many years of 
neglect that no doubt preceded even the creation of the 
Department of Homeland Security or your being hired by the 
Federal Government in your current position. But it strikes me 
that we have come up with a comprehensive way to deal with the 
information. Let's say we do get information that somebody has 
not left the country at the expiration of the visa, so what? 
Collecting the information does not keep unless we are going to 
actually have the people to followup on the information and are 
going to have the ability to communicate technology through the 
various data bases to give a law enforcement person the 
information they need in order to apprehend that individual.
    So I think what this points out is that there is a huge 
void we have in other areas. Even if you had the exit system up 
and running 100 percent, the question is what you are going to 
do with that information.
    I want to ask Dr. Barth--and I think, Mr. Mocny, you also 
mentioned the desire of the Department to go after a ten-
fingerprint on US-VISIT. As I understand right now, it is an 
index finger on each hand.
    Mr. Mocny. Correct.
    Senator Cornyn. But as I understand from Secretary 
Chertoff, the desire to go to ten fingerprints is to be able to 
try to get matches with various partial prints that had been 
obtained in places like safe houses in Afghanistan or Iraq or 
elsewhere around the country to take advantage of all the 
fingerprint records that may be available and then match those 
with people coming across our border through the US-VISIT 
Program. Do I have that about right?
    Mr. Barth. Yes.
    Mr. Mocny. Yes, you have it very clear.
    Senator Cornyn. And what are your estimates in terms of how 
much of an improvement this will be in terms of our ability to 
catch criminals and threats to our country by the use of ten 
fingerprints as opposed to just two?
    Mr. Barth. Let me just add one factor. Then I will have Bob 
answer your details here.
    An additional feature of the ten-fingerprint system is that 
the DHS data bases then will be able to be more easily aligned 
with the significantly large FBI data bases which are based on 
ten fingerprints. So there is an added advantage there that you 
are not just searching half of the universe, if you will, of 
available prints. And the interoperability of those two systems 
is something that our two Departments--the Justice Department 
and DHS--are very actively pursuing so that when we do have 
DHS' ten-print systems fully set up, we will have a very good 
exchange of prints with the FBI.
    Senator Cornyn. Thank you very much.
    Madam Chairman, I think, you know, one of the things that 
we have talked about in terms of comprehensive immigration 
reform is the importance of work site verification and 
eliminating some of the identity theft and document fraud at 
the work site, which, of course, is most often the magnet that 
draws people to this country. And I would just say I will leave 
this portion of the hearing even more convinced that we are 
going to have to fill in a lot of different gaps here and not 
just the exit program in order to make this system work.
    Thank you very much.
    Chairman Feinstein. Thank you very much, Senator Cornyn.
    I would like to ask one quick question. Doesn't Customs and 
Border Protection require that land passengers submit their I-
94 forms to a Mexican or Canadian immigration inspector when 
they leave the country?
    Mr. Mocny. I don't know if it is a requirement that they 
actually have that as a requirement, but that is often what 
happens. So the I-94, the arrival card and the departure card 
the person gets when they enter the U.S., is either surrendered 
at the airport to the airline check-in agent and at the land 
border often times is given to a Canadian officer. The 
challenge we have with the Mexican border is that for every 
port of entry we have on the Southern border, there is not 
always a corresponding port of entry in Mexico. So there is 
that additional challenge for us as well. But that does happen 
on a regular basis and very often on the Canadian border that 
data--those cards are handed over.
    Chairman Feinstein. Well, I have one here. It says you must 
surrender this permit when you leave the United States across 
the Canadian border to a Canadian official, across the Mexican 
border to a United States official. Why can't that be a 
starting point? Why can't we require that when people leave? If 
they are leaving and they have to give the U.S. official or the 
Canadian official the information----
    Mr. Barth. I am not sure of the legal or regulatory basis 
for the language on the card itself. However, it again comes 
back to an infrastructure problem that we have and have to fix. 
I think--
    Chairman Feinstein. Well, why don't we try to fix it?
    Mr. Barth. Because I think in the first instance we have 
neither the staff nor the facility to slow down the traffic and 
collect those things as people leave the U.S.
    Mr. Mocny. That also does not get to the biometric capture 
at this point. As you have the biographic information--and that 
is helpful in some cases. We have the name of the individual. 
But we cannot capture the biometric that way, and I think we 
are trying to pursue technologies that would allow us to 
capture a biometric as part of the exit. But that very well may 
mean work with Canada in doing so. As Assistant Secretary Barth 
says, they have the infrastructure just 100 yards north of us, 
and we may be able to use some of that. But that is a 
negotiation with Canada that we would enter into and have 
discussions with them.
    But as I said--and I think it is fair to note--at our 37-
some ports of entry on the Southern border, there is not always 
a corresponding port of entry into Mexico. So it just 
represents another challenge for the program.
    Chairman Feinstein. But at least where there is a will, 
something might be worked out. I appreciate that.
    We are joined by Senator Kennedy. Senator, I understand you 
would like to make a statement.
    Senator Kennedy. No, thank you. I will put it in the 
record, Madam Chairman. I have just a couple of questions at an 
appropriate time.
    [The prepared statement of Senator Kennedy appears as a 
submission for the record.]
    Chairman Feinstein. Yes, please go ahead.
    Senator Kennedy. Thank you very much. I apologize for being 
late. I was going to ask about these exit systems of other 
countries. How do they do it? And have you looked at other 
countries? Which countries are doing it well? What are their 
systems? Are there lessons we ought to learn from those? I know 
Singapore, for example, does it well. That is probably a unique 
situation given the size of the country and the population. 
But, I mean, in Europe, they might have had a system years ago, 
but because of the EU, it may be somewhat different. But have 
you looked at other countries to see what we might be able to 
learn from them?
    Mr. Mocny. We have, and that is certainly something that we 
note to ourselves, that these countries have had departure 
control for many, many years, and it is just something that we 
never had here. So as they begin to modify some of their 
systems--you have departure control, passport control in France 
and Japan and Australia. They have always had that 
infrastructure in place, and the challenge that we are faced 
today with is in a very, you know, rapid fashion to stand up 
any kind of exit control absent that infrastructure. So they do 
it well, and it is useful information.
    I will say that some countries are, in fact, beginning to 
look at biometric exit, are doing away with the basic 
infrastructure, the kind of hard brick and mortar, as it were, 
with personnel in place because that does become very 
expensive. So we do look at many countries across the world to 
try to learn from them as well.
    Senator Kennedy. Maybe you have gone over this, and if you 
have, don't bother. But biometric, I mean, I think all of us 
are familiar with what happens with automobiles and going 
through the tolls and all the rest. So you have got that 
capability, but how do you know who is in the car? And that is 
obviously the problem.
    Did you discuss in terms of the biometric some suggestions 
in these areas? Mr. Barth. We did not go into that particular 
detail, Senator, but it is safe to say that that poses the 
additional layer of problem. If you have the driver and they 
merely have to come up and put their finger on the biometric 
detector at the land point of exit, that is one problem. Having 
everyone get out of the car and have to approach the stand and 
put the finger on it just would create an impossible back-up at 
the border that we believe the technology will help us solve, 
just as--whatever it was-10 or 15 years ago, EZPass just burst 
on the scene and you had to slow down to 5 miles an hour to get 
through it, but compared to the Route 95 toll booths, that was 
definitely an improvement. We will get to that point sometime, 
and we believe at some time in the future we will get to where 
the New Jersey Parkway is, which is you can speed through at 55 
miles an hour and capture the data you need.
    Senator Kennedy. Just finally, in the next panel we are 
going to hear some testimony about the use of
    electronics, and I don't know whether you want to make any 
comment or if you have got a reaction to it. I think people 
ought to be able to make their presentation before people make 
maybe a comment. But we are all friends here, and we are all 
trying to learn. So if you have got some ideas or suggestions 
or comments, it would be useful.
    Mr. Mocny. Thank you, Senator. We did provide in our 
written testimony the concept of a bio-token, and that is the 
combination of radio frequency identification with biometrics. 
So it is a very nascent technology at this point. We have to 
look at the ergonomics. If people are going to be leaving the 
country at 55 mph, we have to be careful about what device we 
give them to actually biometrically verify their departure.
    So what we know is that technology is beginning to emerge, 
but we have to factor in so many things such as the ergonomics, 
the safety of it as well. So this is something that we are 
trying to pay attention to. We are looking at it earnestly, and 
we believe, as the Assistant Secretary says, it is not here 
now, but in the office in a couple years' time, it may very 
well present ourselves with a potential solution.
    Senator Kennedy. Thank you. Madam Chairman, if I could, I 
will submit some additional questions, if I could.
    Chairman Feinstein. Absolutely.
    Senator Kennedy. Thank you very, very much.
    Chairman Feinstein. Thank you very much.
    I thank you gentlemen. We look forward to great things 
happening. Thank you very much.
    The next panel consists of--and I will begin while you all 
come to the table, please--Richard Stana, the Director of 
Homeland Security and Justice Issues for the U.S. Government 
Accountability Office. He is a 30-year veteran of GAO who has 
directed reviews on a wide variety of complex military and 
domestic issues. Most recently, he directed GAO's work relating 
to immigration and border security issues, and he is the author 
of the recent report on the challenges of implementing an exit 
program at the land borders.
    Phillip Bond is the president and CEO of Information 
Technology Association of America. Mr. Bond directs the day-to-
day operations of the largest and oldest information technology 
trade association, representing 325 leading software services, 
Internet, telecommunications, electronic commerce, and systems 
integration companies.
    Stewart Verdery is the president of the Monument Policy 
Group. He is the founder and president. This is a consulting 
firm in Washington that advises clients on issues relating to 
homeland security, immigration, and technology. So, gentlemen, 
we are very interested to hear from you, and if you could 
particularly -you have heard the problem. If you could 
particularly concentrate your remarks as to possible solutions, 
that would be appreciated. Mr. Stana, please.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
 JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, 
                              D.C.

    Mr. Stana. Thank you, Chairman Feinstein, Senator Cornyn, 
Senator Kennedy. I am pleased to be here today to discuss DHS' 
implementation of the US-VISIT entry-exit program. As you know, 
the US-VISIT Program is designed to collect, maintain, and 
share data on selected foreign nationals entering and exiting 
the country at air, sea, and land ports of entry. Data is 
captured to learn and verify visitors' identities, screen 
information against watchlists, and record arrival and 
departure. My prepared statement is based on a report we did 
last month on the US-VISIT implementation on land ports of 
entry, and I would just like to make a few points about that 
effort.
    First, we found that DHS cannot currently implement a 
biometric US-VISIT exit capability, as mandated by statute, 
without incurring a major physical and economic impact on land 
border ports. Implementing a biometrically based exit recording 
system that mirrors entry would require more than $3 billion in 
new infrastructure and could produce major traffic congestion 
because travelers would have to stop their vehicles upon exit 
for processing. Technology compatible to the land port 
environment is not currently available to address this 
processing issue. The RFID technology tested at land ports--and 
you can see them on the picture board hanging on gantries and 
on poles here at ports of entry, at Alexandria Bay, New York, 
and Nogales, Arizona--was subject to numerous performance and 
reliability problems. In fact, it had a success rate of only 14 
percent in one test and provided no assurance that the person 
recorded as leaving the country is the same one who entered. It 
is important to note that DHS has not yet provided to Congress 
a statutorily mandated report which was due by June 2005 on its 
plans to fully implement an exit-entry program.
    Second, we found that DHS had not yet articulated how US-
VISIT will strategically fit or incorporate other land border 
security initiatives and mandates. It is important to know, for 
example, how the new Secure Border Initiative, or SBI, will tie 
in with US-VISIT, especially given the interior enforcement 
goals of SBI and the inability of the US-VISIT system to 
generate comprehensive, reliable, and accurate overstay data. 
It is also important to know how the Western Hemisphere Travel 
Initiative will work with US-VISIT.
    Last, DHS deserves credit for installing the entry portion 
of US-VISIT at nearly all of the land ports, and this was done 
with minimal new construction or changes to existing 
facilities. But officials at 12 of the 21 land ports we visited 
told us about US-VISIT-related computer slowdowns and freezes 
that adversely affected processing times and could have 
compromised security. These problems were not routinely 
reported to headquarters, in part because of the lack of 
coordination between US-VISIT and CBP.
    A real challenge lies ahead because the introduction of 
technology to permit a ten-fingerprint scan and read e-
passports could increase inspection times and crowding, and 
thus affect port operations at aging and space-constrained 
facilities like those pictures on the picture board. The left-
hand side is San Ysidro--it is a port right in your backyard, 
Senator Feinstein and on the right is the Detroit-Windsor 
Tunnel. There is really no place to expand in the tunnel.
    In the limited time I have remaining, I would like to raise 
a few other issues that members of the Committee may wish to 
consider as you conduct oversight of the US-VISIT Program.
    First, technology is a tool, but not a cure for every 
border security problem. It is only one leg of a three-legged 
stool that includes people, process, and technology. As good as 
technology might be, it must fit in the port operational 
environment and facilitate, not hamper, the inspection process. 
CBP inspectors told us that technology is unreliable at times 
or can overwhelm them with information. And when this happens, 
the inspection process can slow down. Time pressures have 
resulted in information being ignored and security being 
compromised by hasty inspections. And keep in mind that Ahmed 
Ressam, the Millennium Bomber, was stopped not by technology 
but by an alert customs inspector who observed the subject and 
had a gut instinct that something was not quite right. We do 
not want technology to force our inspectors to keep their eyes 
off the traveler.
    Second, the US-VISIT Program cannot operate effectively in 
a vacuum but, rather, needs to be integrated with other border 
security systems. Even an effective entry-exit system would be 
compromised if travelers could walk, drive, or sail in and out 
of the country without detection between the ports. Controlling 
7,500 miles of land border and 95,000 of coastline is no easy 
or inexpensive task. Fragmenting responsibility for border 
security programs among several organizational components at 
DHS frankly is not helpful.
    Third, although various laws and mandates call for an 
entry-exit system, there may be opportunities to help achieve 
the system's goals in combination with other DHS programs. An 
effective entry system is extremely important to prevent 
identified terrorists and other criminals from entering the 
United States, but enhanced intelligence might also be needed 
to improve our watchlists. And an effective exit control system 
would be helpful to identify those who have overstayed their 
visas, but the feasibility of locating and removing millions of 
overstays who may not wish to be found is questionable, without 
increasing the modest number of ICE agents and resources 
currently devoted to this task and implementing an effective 
work site enforcement or temporary worker program.
    In closing, there is no question that securing our Nation's 
borders is a vital task and deserves high priority. The 
challenges we have found provide an opportunity for Congress to 
consider how this task can best be accomplished.
    This concludes my oral statement, and I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Stana appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Mr. Stana.
    Mr. Bond?

  STATEMENT OF PHILLIP J. BOND, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, INFORMATION TECHNOLOGY ASSOCIATION OF AMERICA (ITAA), 
                      ARLINGTON, VIRGINIA

    Mr. Bond. Thank you, Chairman Feinstein, Senator Cornyn, 
Senator Kennedy. On behalf of the membership of ITAA, it is a 
privilege to be here. Let me get right to the point.
    For this hearing, I was asked to discuss whether technology 
currently exists that can verify the identity of a foreign 
visitor leaving this country, as mandated by Congress. The 
short answer is yes, both proximity-and vicinity-read RFID 
technologies can help accomplish this task, but as with almost 
any technology, I have to quickly add that it depends.
    Let me talk briefly about the two and preface that by 
saying just very generally the Co-Chair of the bipartisan RFID 
Caucus understands this well, but RFID simply means you have 
some information and a small antenna which transmits differing 
amounts of information to a receiver, which then reads that 
information via radio wave. Two different basic approaches.
    Proximity-read RFID systems have a very secure chip, a lot 
of information. These are the smart cards you read about for 
access to buildings and so forth. They are commonly used and 
have advanced computing powers. Very good at authenticating the 
user and ensuring that the person using the card is who they 
claim to be.
    For the purpose of the exit program, DHS could issue all 
US-VISIT applicants a smart card upon entering. They would then 
authenticate their identity upon exiting by going through a 
reader station. Officials located at the stations could verify 
that the person is who they say they are by a visual matchor by 
a biometric match which fingerprints. This may, as has been 
noted, slow traffic. It may require significant investment, 
additional agents at point of entry, or expansion of those. On 
the other hand, stopping the traffic to inspect the documents 
may be the answer if the national priority is 100 percent 
authentication. That technology would do that. DHS would need, 
I think, to perform a cost/benefit analysis.
    Alternatively, there is ultra-high frequency or vicinity-
read RFID. This could be attached to the I-94 form when 
visitors enter. These have a longer read range--they are like 
the speed pass that you are familiar with on some of the 
roads--and would provide some flexibility in facilitating the 
flow of traffic while hopefully securing our borders.
    Vicinity-read RFID technology transmits a unique number, 
kind of like your license plate number on a car, and then you 
separately dive into a secure data base to determine the 
connection between the two.
    With the UHF border solution, DHS could quickly read a high 
volume of credentials while vehicles passed through. And as 
with any type of exit program, presumably some visual 
inspections would need to occur. Unlike the smart card or 
proximity-read option, it would keep the traffic moving and 
perhaps align with existing trusted traveled programs that we 
have today that use similar technology.
    However, the current generation of vicinity-read solutions, 
like existing smart card products, do not independently tie a 
person to an ID card through biometrics without some 
intervention, without checking visually or with some other 
biometric. The limitation in this case is that it really only 
proves that the I-94 left the country, not the person that is 
supposed to be attached to that I-94, which is, of course, not 
the same thing.
    I am aware of the pilot program that was mentioned and the 
results there are not satisfactory looking at the ultra-high 
frequency vicinity-read. However, I also know that this kind of 
technology works. It is in use on both our borders today with 
the NEXUS and SENTRI programs. The DOD has used it. And as has 
been mentioned, there is technology on the horizon that would 
combine the longer read, faster flow with the biometric 
capability. It is not here yet, but it is on the horizon.
    Proponents of the vicinity-read technology would say that 
implementing this through a phased approach would give 
significant benefits in the near term, increasing dividends on 
security, and commerce in the future while minimizing delays. 
That is the chief advantage there. However, it is not up to me 
or my association to pick winners in this space, and I think 
Government should be very careful about picking winners and 
losers as well. As Senator Cornyn I think alluded to earlier, 
Government should define the mission, objectives, and 
requirements, and then go to the technology sector of the 
country and find what is best to fit the mission and the 
objectives and the priorities that Congress in its oversight 
helps to set.
    If I can, with 12 seconds, I want to briefly just point out 
that some folks very legitimately concerned about privacy have 
depicted vicinity-read RFID as a privacy risk. I would submit 
that it is not at all inherently secure and that those charges 
do not really hold up to scrutiny because, again, it only 
transmits a number, like your license plate, and unless you 
know which secure data base to go to and how those numbers 
correspond to the personally identifiable information, the risk 
is very, very small. In fact, in the 10 years that these kind 
of technologies have been in use, I am not aware of any 
identity theft problems that come from that operation.
    I am over my time limit. Thank you, Chairman Feinstein.
    [The prepared statement of Mr. Bond appears as a submission 
for the record.]
    Chairman Feinstein. Thank you. Thank you, Mr. Bond.
    Mr. Verdery?

  STATEMENT OF C. STEWART VERDERY, JR., PARTNER AND FOUNDER, 
  MONUMENT POLICY GROUP, LLC, AND ADJUNCT FELLOW, CENTER FOR 
     STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, D.C.

    Mr. Verdery. Chairman Feinstein and Ranking Member Cornyn 
and Senator Kennedy, it is nice to return to your Committee 
again and talk about some of the issues that the country faces 
in securing our borders and mixing policy, technology, and 
personnel to do so. Not only must these programs protect us 
against terrorism, crime, and illegal immigration, but also 
must welcome those and facilitate the travel of those who 
contribute to our economic livelihood and contribute to our 
public diplomacy efforts.
    My written testimony goes into great depth about six 
priorities for US-VISIT in 2007 and moving forward. I am only 
going to touchon some of them. But, in order, they are airport 
exit, the International Registered Traveler Program, land entry 
and exit, transition from two- to ten-fingerprint capture, 
cooperation internationally, and how this would fit in with our 
employment verification efforts. I have a great faith in the 
US-VISIT Program Office and the Office of Screening 
Coordination at the Department to make the best use of the 
dollars that Congress gives them under the authorities that 
they are operating under.
    As you may know, I served as Assistant Secretary for Border 
and Transportation Security Policy at DHS 2003 to 2005 working 
for Tom Ridge and Asa Hutchinson. I was proud to help build the 
US-VISIT Program into what it is today. We spent many years, as 
you mentioned in your opening statement, Madam Chairman, with 
no deployment because people could not figure out how to build 
a system all at once. So Secretary Ridge made the tough 
decision to build this in increments, and that is the way it 
has gone since, and it has worked well with what has been 
built. The problem has been the lack of progress in the last 
couple years on building additional steps.
    One reason for that fact is, of course, the budget for the 
program has relatively been flat, between $330 million and $362 
million a year for the last 5 years, just enough to pay for 
ongoing operations and the important interoperability work with 
the FBI systems. In addition, the post-Ridge leadership has 
gone the extra mile to try to coordinate US-VISIT with other 
credentialing and screening programs resulting in delays.
    I was interested to see the GAO report that Mr. Stana 
released last month. I thought it was a fascinating report. 
Some news stories picked this up as a huge bombshell. It was a 
development out of left field no one had heard of. We had taken 
a shocking turn away from monitoring departures of all 
foreigners leaving the country--except it is not so shocking 
and it is not a new development. There has never been money in 
the budget that has been requested, and there has never been 
money in the budget that has been enacted to do a land exit 
solution for the reasons that have been discussed here related 
to infrastructure and personnel.
    On air exit, I do believe that DHS and US-VISIT have to end 
2 years of deliberation and choose a system to deploy. They 
have had a difficult time deciding whether to place this at the 
airport check-in counter, at the TSA checkpoint, at the 
boarding gate, or at some combination of the above. In my view, 
it ought to be at the checkpoint where TSA screeners operate 
because they are used to interacting with the public. You have 
a law enforcement presence there. You have information 
technology connectivity there, and also it is a natural 
funneling device to move people through a limited number of 
locations as opposed to putting it at the counter or at the 
gate. This, of course, would have to require coordination with 
the airlines' departure records to make sure that the person 
who was ``exited'' biometrically at the checkpoint actually 
left the country.
    Hopefully, once we have a robust exit system, this would 
change some of our visa policies that have been deterring 
travel to the United States. The overwhelming majority of 
people who want visas, don't get them because we are not sure 
they are going to leave. Hopefully, with a robust exit system, 
we could expand the Visa Waiver Program if countries meet the 
security criteria that DHS has put forward, the new proposal 
that has been proposed, as well as requiring those nationals to 
compile a sterling record--and whatever percentage you want, 98 
percent, 99 percent--of on-time dedicated departures. I think 
this is a way to both do the risk management of travel that we 
need to do and also make our country more welcoming than it has 
been in several years.
    The Discover America Partnership announced a report today 
endorsing the Visa Waiver Program enhancements that the 
President has put forward, but also the exit requirement as a 
way to make sure that people have actually left the country.
    Another aspect of this would be the International 
Registered Traveler Program. Frequent business travelers, 
whether they are U.S. citizens returning to the country or 
foreigners coming to the country, should not have to through 
robotic screening time after time after time. The U.K. has 
deployed a system, their Project IRIS. They are going to have a 
million people enrolled by the end of the decade who have been 
enrolled, gone through a thorough background check, and are 
able to skip immigration processing with a random audit 
function, of course. It is a way to maximize the attention on 
less known travelers.
    On the land side--and it looks like I am running out of 
time--I do believe that the RFID solution that Secretary Bond 
mentioned can work. The piloting that was done in the last 
couple years, the results were not good, but I think it really 
will require a port-by-port deployment with the kind of 
resources you need to put the gantries in the right place. 
Programs are coming online with RFID and travel documents, such 
as the Western Hemisphere Passport Card, which will be unveiled 
later this year or perhaps next with RFID. The Border Crossing 
Card that Mexicans travel with will need to be retrofitted to 
include RFID. And this can work, and we should not wait for a 
biometric, bio-token system which could be several years down 
the road, which is the ultimate solution. We should be able to 
do both at the same time.
    As I mentioned, my written testimony also talks about the 
use of biometrics from employment verification as part of the 
guest worker program. Perhaps we can address that in written 
questions.
    I thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Mr. Verdery appears as a 
submission for the record.]
    Chairman Feinstein. Thank you, gentlemen, very, very much.
    Mr. Verdery, since you mentioned the Visa Waiver Program, 
as you know, two terrorists entered the country on the Visa 
Waiver Program: Mr. Moussaoui and the Shoe Bomber, Mr. Reid. As 
you also know, there are 27 countries, there were 15 million 
people who came in a year ago on Visa Waiver, and no one knows 
whether they left or not.
    You also know that there is great pressure to expand the 
program. The rejection rate of Visa Waiver is 3 percent. In 
other words, if you are a country that rejects more than 3 
percent of the--has 3 percent or more of the visas to come here 
rejected, you are not eligible. Well, these countries have like 
20 percent rejection, 25 percent rejection. I don't know 
whether you know or not, but there are tens of thousands of 
Visa Waiver country passports that are stolen, international 
travel documents, Geneva Convention travel documents that are 
stolen, international driver's licenses that are stolen. What 
do you think happens to those? People buy them. They are in the 
country that is part of the Visa Waiver Program, and they come 
into this country, and we do not know who they really are. Now, 
some of us have had a bill to tighten up passport fraud. Use a 
forged passport illegally, you know, it is a go-to-jail card, 
which it should be in my view.
    Having said that, I think, you know, we are with this 
dilemma. The bigger these programs get, the more people come 
here and stay, the more you swell the undocumented population, 
which creates this backlash in America which prevents us from 
doing a number of things to reform immigration.
    Mr. Bond, you mentioned that there are systems that could 
provide the kind of exit program, and you mentioned 
coordinating them with the I-94 document. I am not asking you 
to declare a winner and a loser in the competitive race for 
this, but what kind of a system would be most practical, would 
be doable, and satisfy verification simply that a visa holder 
has left the country?
    Mr. Bond. Well, I think in the near term there is no 
perfect solution right now. You could attach RFID to the I-94 
and know that the I-94--
    Chairman Feinstein. You could attach--go ahead.
    Mr. Bond. RFID technology on the form.
    Chairman Feinstein. Right.
    Mr. Bond. It could actually go on the form, and so you know 
when the I-94 has left. Now, if that were combined with random 
testing of some leaving, the visitor who is getting ready to 
leave thinks, well, there is some chance I may be pulled out 
and checked, and so you have some additional security. 
Ultimately what they are looking at is--
    Chairman Feinstein. Is that costly to do that, to attach it 
to the I-94 form?
    Mr. Bond. No. I think compared to some of the alternatives, 
that would be considered a very low-cost factor.
    Chairman Feinstein. And so that would be a chip. Is that 
correct?
    Mr. Bond. Yes.
    Chairman Feinstein. That essentially would have biometric 
identifiers?
    Mr. Bond. No. In this case, it would have--currently, it 
would just simply transmit a unique number, which then, when 
read on the other end, that separately connects to a secure 
data base that tells you what that number corresponds to. This 
is where I used the example of your license plate. It does not 
really tell you anything, but when combined with the DMV data 
base, then you know who that person is. That could be done 
today, but, again, if it is attached to the form, it only tells 
you the form has left. If you combine it with some random 
testing, you get some more discipline in the system perhaps.
    They are looking at ways to use a biometric on the form--
and this is where you heard concern about safety and 
ergonomics--so that it perhaps might have a biometric on the 
form so when my thumb is read, that releases the identifier. So 
then I know that not only is it the I-94 but it is my I-94 
because it read my finger.
    Chairman Feinstein. Fascinating.
    Mr. Bond. But that is not here today, I want to be clear 
about that.
    Mr. Verdery. Senator, could I just jump in? Because, again, 
the air side is a key. You do not need all this for the air 
side. You have people there. You have connectivity.
    Chairman Feinstein. You do not need all this what?
    Mr. Verdery. You do not need these forms and this kind of 
RFID. You have the person right there who can be fingerprinted. 
So the air side, it is just a question of where you put it--at 
the checkpoint, at the counter, at the gate. You have the 
person right in front of you, can put their fingerprints down, 
two, four, ten, or whatever.
    And then in terms of the visa waiver question, if people 
who come in, fly in from France or Japan or a new country, 
South Korea, and want to leave for a day trip to Mexico, that 
is fine. They come back in. But they still would have to leave 
the U.S. by air, ``exited,'' checked out. You would know they 
left within 90 days. And if their country does not compile a 
sterling record, it is out. It would solve the problem that you 
eloquently described.
    Mr. Stana. Senator, can I add a note of caution to the RFID 
discussion?
    Chairman Feinstein. Please.
    Mr. Stana. One of the things that concerns me about the 
discussion of using a card or a key fob and pressing your thumb 
to it as you leave at X number of miles an hour is that I have 
witnessed Border Patrol agents at Border Patrol stations and I 
have witnessed inspectors at the ports trying to take 
fingerprints. Taking fingerprints is nothing that is easy, that 
you can just put your finger on a form while you are talking on 
the cell phone going through a port at 35 miles an hour. Maybe 
technology will catch up, but currently it is very difficult to 
get readable prints that would satisfy the biometric identity 
requirement of the law. Prints, you know, are pressed too hard, 
or too soft; it could be raining outside, or be foggy. As a 
result the technology does not pick up the print. The car's 
glass could be tinted. You might hold the I-84 too close to 
your body. There is any number of reasons why it won't work as 
planned. There might be a solution down the road, but right now 
I think it is a bit optimistic.
    Chairman Feinstein. So come up with a better one.
    Mr. Stana. Well, right now--what can we do right now, I 
guess is your question. Right now there is no good solution, 
and unless you want to embark on a $3 to $5 billion building 
program--and I do not think any of us want to do that. There 
might be something downstream a little ways that we can rely 
on. Right now we might be able to build somewhat on current 
trusted traveled programs, but, again, you are basically 
keeping honest people honest. People who enroll in those 
programs are not a threat. They are likely to leave. But it is 
a start.
    The other thing I would do is I would look to non-US-VISIT, 
non-trusted traveler programs to see if we can get there 
through different means. Senator Cornyn mentioned more 
effective work site enforcement, beefing up ICE agents to 
search out visa overstays. If you do the math, Senator, there 
are about 5 million visa overstays in the United States--12 
million illegal alien times roughly 40 percent estimated to be 
overstays, you get about 5 million overstays. ICE has between 
200 and 300 agents out looking for them right now. And if you 
consider the numbers, you would see they are not going to get 
very far, and it explains the 200 apprehensions figure that Mr. 
Mocny mentioned a few minutes ago. So that is one way we can do 
it.
    We can beef up intelligence services to try to get our line 
of defense up so we do not let dangerous people in to begin 
with. We only know to stop those on the watchlist, and there 
are ways we can improve those lists. And then, of course, 
there's the work site. If people are coming here to find work, 
fine. We can acknowledge that and create a temporary worker 
program. Or we can enforce the work site rules and reduce the 
size of that haystack, so to speak.
    But until a technology solution presents itself, I think we 
need to take interim steps. But I would caution against taking 
a step that would lead us to a large investment that would not 
ultimately be the solution we are looking for.
    Chairman Feinstein. My time is up. Mr. Bond had wanted to 
respond. Do you mind, Senator?
    Senator Cornyn. No.
    Mr. Bond. Thank you, Chairman Feinstein. Just one 
additional point. While I agree that the technology is not 
there today, you had mentioned, Chairman Feinstein, your desire 
for at least a starting point. And I guess if I could, I would 
say a common denominator you may be hearing here is some 
combination of faster flowing vicinity read along with bringing 
some percentage of the folks out for a real fingerprint 
biometric test so there is some discipline or decent chance of 
discipline in the system. But that might be a starting point 
for you and the Department to discuss.
    Chairman Feinstein. Just one quick comment. I think Mr. 
Stana is right about the fingerprint. I think they are very 
difficult. You have to have very trained people. They do take 
time, and I am not sure that that is the right biometric 
indicator to use for this.
    What piqued my interest was the I-94 form that is simple, 
that is a piece of paper, but that Canadian officials and 
Mexican officials at least at places collect. Maybe there is a 
way of temporarily building on that.
    Mr. Bond. That would let you know, as I said, that the form 
had left. You do not have real correlation between--certain 
correlation.
    Chairman Feinstein. We understand that. We understand it is 
imperfect.
    Mr. Bond. But it would be the starting point, right.
    Chairman Feinstein. I mean, China, you know, you go into 
China, and you get a piece of paper, and you fill it out. It is 
in triplicate. And you give it out at various places, and when 
you leave, you provide one piece of paper, too. They know you 
have left.
    Mr. Bond. I think all I was trying to suggest is just as we 
do at airports pull some people out for a little bit closer 
examination, you may do that with some percentage of the folks 
going across the land borders.
    Chairman Feinstein. Thank you.
    Sorry, Senator. Go right ahead.
    Senator Cornyn. No problem. We have a former State elected 
official in Texas who likes to, when she is traveling around 
the State on the stump, talk about the Yellow Pages test and 
her conviction that Government should not do anything that you 
can find provided by a private party in the Yellow Pages. And I 
think there is a lot of merit to that.
    But I am struck by the fact that I can carry a card like 
this around with me, provided by the financial services 
industry, and I can transfer funds at a store, at a money 
machine, virtually anywhere in the world. And in the United 
States, in talking about the various incremental changes we 
have made to try to adapt to a post-9/11 environment, we have, 
for example, Mr. Stana, you mentioned the Secure Border 
Initiative, which is a huge project that has been announced by 
the Department of Homeland Security. I think, Mr. Verdery, you 
talked about the Western Hemisphere Travel Initiative, which 
will require American citizens to have a passport or passport 
equivalent just to go back and forth to Mexico or back and 
forth to Canada, out of the country. We have the laser visas 
that we issue to Mexican nationals. We have the port security 
bill we passed late last year that requires workers at ports to 
carry cards that will demonstrate they have gone through the 
appropriate background and security check. And we have this 
proliferation of programs and cards.
    And what I worry about a little bit is that Government is 
just so slow and we do things in such an incremental way that 
the wisdom perhaps of a program that seemed like exactly the 
thing we needed to do 5 years ago after 9/11 has sort of been 
overcome by subsequent events. I would be interested to know, 
and perhaps get a comment from each of you, about whether there 
is anything that you would recommend we do to reduce or 
minimize that problem in order to address the concerns that we 
are talking about here today.
    Mr. Stana, do you have any thoughts?
    Mr. Stana. Well, yes, I have a few thoughts.
    First, you mentioned a number of programs--SBI, WHTI, US-
VISIT, and so on. There is an alphabet soup of border security 
programs--NEXUS, SENTRI. If they are not well coordinated and 
funded on a level where they complement each other, I think we 
might be at a point where we are creating chains with a lot of 
weak links. A great US-VISIT Program is not going to be any 
good if you can walk 2 miles down the border and cross without 
detection. So that is one point.
    The second point is let's define what the goals are. What 
are we trying to achieve here? If we are trying to achieve a 
criminal-and terror-free country, then I would want to beef up 
entry, because I think experience has shown that sometimes 
terrorists they do not exit alive.
    If I am looking for immigration control, I would--
    Senator Cornyn. If I could just interject there, the 
problem is when they get in, not them leaving.
    Mr. Stana. Exactly.
    Mr. Bond. Because they are going to do their damage, and 
we--
    Mr. Stana. They are going to do their damage and they do 
not care if they leave. If you are looking for immigration 
control, there are any number of programs and methods of 
getting at overstays without a US-VISIT system. The trick is 
identifying them.
    I would point out we ran into this identification and 
location issue with the old Alien Registration Program. I don't 
know if you remember, but every January, aliens used to have to 
go to the post office and fill out a card about their 
whereabouts. And many filled it out, and many did not because 
they did not want to be found. And that is the problem that ICE 
has now. Even when US-VISIT sends them the names of overstays, 
trying to find people who do not want to be found is extremely 
difficult.
    We all leave electronic fingerprints everywhere. You 
pointed at your credit card, and somewhere, if you used it 
today, there is going to be a record of you using it. If you do 
not want to be found, you do not us the you do not use the card 
and those records will not exist. So if we are trying to find 
overstays and if overstays is the problem we are trying to 
address, you probably do not need a US-VISIT system or have to 
rely solely on a US-VISIT system to get there. You might find 
another way to at least start doing that.
    But I would agree with the proposition that we ought to 
know who is in the country and we ought to have some way to 
assure our border security and our internal security, but maybe 
we do not need to wait until the US-VISIT technology is mature 
enough to give us that assurance.
    Senator Cornyn. Mr. Stana, your comments remind of--I think 
I have seen or read about cell phones that are being marketed 
to parents because they have the capacity to be tracked by 
global positioning systems so they can determine where their 
children are.
    Mr. Stana. That is true. The same with the video 
surveillance technology with cameras everywhere. I have been 
told that there probably are not too many hours of the day--and 
those hours are probably at home in your bedroom while you are 
asleep--where you are not recorded on some camera, either 
passing by an ATM machine or being in a CVS pharmacy.
    Senator Cornyn. I am not suggesting we issue cell phones to 
all of our visitors when they come to the United States, but, 
clearly, the technology exists if we can figure a way to direct 
it in a way that is most constructive.
    I know my time is up, but I would appreciate it, Madam 
Chairman, if Mr. Bond and Mr. Verdery could respond.
    Chairman Feinstein. Please, go ahead.
    Senator Cornyn. Thank you.
    Mr. Bond. Thank you. I will be very brief. I think that 
that, as was alluded to here, Government should define the 
mission, the objectives, and the prioritized requirements so 
that you can get started, and then sit down with those folks in 
the Yellow Pages who are the technology leaders, many of them 
in Texas and California, and figure out what is possible, what 
is possible in the near term, what really are longer-term 
considerations so you can begin to match the technology with 
the prioritized requirements.
    Senator Cornyn. Thank you.
    Mr. Verdery. Senator, just a few points. One, I completely 
agree with the need to synergize and look at these programs 
holistically. There is a new office at the Department that 
started last year, the Office of Screening Coordination. That 
is their exact job, to look at these credentialing programs and 
find out where the gaps are, where the benefits are in 
coordination. And they are trying to do that.
    I think in terms of the land systems, if you could get a 
system where the Western Hemisphere Passport Card or a State-
issued passport card was online with RFID, you retrofitted the 
Border Crossing Cards or laser visas with RFID, you have people 
with the new e-Passports--it is a different kind of RFID, but 
it would still probably work--you essentially have gotten to 
the point where most people are coming in with an RFID 
capability that could be tracked inbound and outbound; you have 
gotten far down the road for the land borders.
    The other question would be, as Mr. Stana mentioned, on the 
entry side, the ten-print conversion that you have heard a lot 
about is unfortunately moving rather slowly. This was announced 
in the summer of 2005. Those machines are out there. They are 
being tested, but we are not talking about full implementation 
now until the end of 2008 at our consular posts and ports of 
entry. And they are not the big giant, bulky ones you saw 
before. They are very smooth and work well. So I think that is 
an entry security enhancement that is ready to go from a 
technology basis.
    Chairman Feinstein. Just by way of having a bit of 
discussion here until we have the vote and can excuse the 
panel, I want to go back to the national security implications. 
There is a lot of pressure on us economically, ease everything, 
let people come in--largely, a lot of businesses. I have had 
California companies, I have had others come in to me. They run 
big operations. They want more and more and more people.
    On the other hand, you have to look at it as to whether we 
are going to be a country that respects a border at all, and we 
have always been a sieve. People have come, they have gone, and 
we now find ourselves wanting to have some security, some 
knowledge, with huge immigration problems that grow every year.
    Senator Cornyn and I got interested in the last Congress in 
something that is called the OTM, the Other than Mexican, who 
comes across the Mexican border. And we see those numbers 
burgeoning, and we see more people appearing from Middle 
Eastern countries who come into the country illegally through 
Mexico--all of which sends a signal, you know, there could be a 
problem.
    And I do not know how we sit here and just shrug our 
shoulders and say, well, it does not appear to be doable, 
without trying different things. And I do not think the perfect 
should be the enemy of the good. I think we probably do not 
worry about the fingerprint on it, but just at least if you 
give in a piece of paper when you leave, that is a record that 
that individual has left.
    And so I am really interested in following this through and 
trying to get a continuum of technology where, for a modest 
investment up front, you can begin to get this correct 
accounting and then build on it as the technology improves. So 
if anybody has any ideas, at least I--and I hope Senator 
Cornyn, too--would be interested in receiving them.
    Would you like to make any further comment?
    Senator Cornyn. Just one last comment, Senator Feinstein. 
Thank you very much again for convening this hearing. This is 
important to me and my constituents in Texas and I submit, to 
the Nation, for the reasons that you have mentioned and we have 
discussed here today. But I think there is also a risk that we 
need to acknowledge, and that is, a false sense of security.
    I am reminded of the recent raids by ICE on the Swift Meat 
Packing Plant companies across the country. This is a company 
that participated in a voluntary program, as you know, called 
Basic Pilot to be able to verify that, in fact, their employees 
could legitimately work in the United States. So they were sort 
of the good guys participating in it. But what they did not 
realize is that a large percentage of their employees were 
using forged documents, which Basic Pilot does not reveal. And 
so while it is true that they were--that because they 
participated in the Basic Pilot program, they were immunized 
from certain penalties that might otherwise attach to those who 
hire people who cannot legally work in the country, they 
suffered millions of dollars of business disruption because, in 
fact, they were under the false impression that if they just 
complied like a good citizen with the Basic Pilot program that 
they would be protected. And they were not.
    So this is another way to look at this problem that we have 
got to solve as we address all these other issues.
    Chairman Feinstein. I really agree with that, and this is 
really about bringing order out of disorder. And I think it is 
worth it to do it, and I think it makes it easier for us to do 
some of those things like a guest worker program that you 
referred to, Mr. Stana, because there is so much hyperbole. 
People's emotions swell so greatly around this issue. And we 
cannot go out and represent to anyone that our borders are 
enforced. We just cannot do it. And that is a very terrible 
situation.
    So my very strong view is that we have to walk before we 
run, that we should work on, even if it is a paper system, 
whatever it is, to try to bring about a continuum of order and 
have it cost-effective.
    So, once again, any suggestions would be more than welcome, 
and I really want to thank the witnesses for being here. I hope 
to continue this conversation. I know Senator Cornyn, Senator 
Kyl, and Senator Kennedy would like to as well.
    Thank you very much. The vote has started, and the meeting 
is adjourned.
    [Whereupon, at 4:12 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 34148.001

[GRAPHIC] [TIFF OMITTED] 34148.002

[GRAPHIC] [TIFF OMITTED] 34148.003

[GRAPHIC] [TIFF OMITTED] 34148.004

[GRAPHIC] [TIFF OMITTED] 34148.005

[GRAPHIC] [TIFF OMITTED] 34148.006

[GRAPHIC] [TIFF OMITTED] 34148.007

[GRAPHIC] [TIFF OMITTED] 34148.008

[GRAPHIC] [TIFF OMITTED] 34148.009

[GRAPHIC] [TIFF OMITTED] 34148.010

[GRAPHIC] [TIFF OMITTED] 34148.011

[GRAPHIC] [TIFF OMITTED] 34148.012

[GRAPHIC] [TIFF OMITTED] 34148.013

[GRAPHIC] [TIFF OMITTED] 34148.014

[GRAPHIC] [TIFF OMITTED] 34148.015

[GRAPHIC] [TIFF OMITTED] 34148.016

[GRAPHIC] [TIFF OMITTED] 34148.017

[GRAPHIC] [TIFF OMITTED] 34148.018

[GRAPHIC] [TIFF OMITTED] 34148.019

[GRAPHIC] [TIFF OMITTED] 34148.020

[GRAPHIC] [TIFF OMITTED] 34148.021

[GRAPHIC] [TIFF OMITTED] 34148.022

[GRAPHIC] [TIFF OMITTED] 34148.023

[GRAPHIC] [TIFF OMITTED] 34148.024

[GRAPHIC] [TIFF OMITTED] 34148.025

[GRAPHIC] [TIFF OMITTED] 34148.026

[GRAPHIC] [TIFF OMITTED] 34148.027

[GRAPHIC] [TIFF OMITTED] 34148.028

[GRAPHIC] [TIFF OMITTED] 34148.029

[GRAPHIC] [TIFF OMITTED] 34148.030

[GRAPHIC] [TIFF OMITTED] 34148.031

[GRAPHIC] [TIFF OMITTED] 34148.032

[GRAPHIC] [TIFF OMITTED] 34148.033

[GRAPHIC] [TIFF OMITTED] 34148.034

[GRAPHIC] [TIFF OMITTED] 34148.035

[GRAPHIC] [TIFF OMITTED] 34148.036

[GRAPHIC] [TIFF OMITTED] 34148.037

[GRAPHIC] [TIFF OMITTED] 34148.038

[GRAPHIC] [TIFF OMITTED] 34148.039

[GRAPHIC] [TIFF OMITTED] 34148.040

[GRAPHIC] [TIFF OMITTED] 34148.041

[GRAPHIC] [TIFF OMITTED] 34148.042

[GRAPHIC] [TIFF OMITTED] 34148.043

[GRAPHIC] [TIFF OMITTED] 34148.044

[GRAPHIC] [TIFF OMITTED] 34148.045

[GRAPHIC] [TIFF OMITTED] 34148.046

[GRAPHIC] [TIFF OMITTED] 34148.047

[GRAPHIC] [TIFF OMITTED] 34148.048

[GRAPHIC] [TIFF OMITTED] 34148.049

[GRAPHIC] [TIFF OMITTED] 34148.050

[GRAPHIC] [TIFF OMITTED] 34148.051

[GRAPHIC] [TIFF OMITTED] 34148.052

[GRAPHIC] [TIFF OMITTED] 34148.053

[GRAPHIC] [TIFF OMITTED] 34148.054

[GRAPHIC] [TIFF OMITTED] 34148.055

[GRAPHIC] [TIFF OMITTED] 34148.056

[GRAPHIC] [TIFF OMITTED] 34148.057

[GRAPHIC] [TIFF OMITTED] 34148.058

[GRAPHIC] [TIFF OMITTED] 34148.059

[GRAPHIC] [TIFF OMITTED] 34148.060

[GRAPHIC] [TIFF OMITTED] 34148.061

[GRAPHIC] [TIFF OMITTED] 34148.062

[GRAPHIC] [TIFF OMITTED] 34148.063

[GRAPHIC] [TIFF OMITTED] 34148.064

[GRAPHIC] [TIFF OMITTED] 34148.065

[GRAPHIC] [TIFF OMITTED] 34148.066

[GRAPHIC] [TIFF OMITTED] 34148.067

[GRAPHIC] [TIFF OMITTED] 34148.068

[GRAPHIC] [TIFF OMITTED] 34148.069

[GRAPHIC] [TIFF OMITTED] 34148.070

[GRAPHIC] [TIFF OMITTED] 34148.071

[GRAPHIC] [TIFF OMITTED] 34148.072

[GRAPHIC] [TIFF OMITTED] 34148.073

[GRAPHIC] [TIFF OMITTED] 34148.074

[GRAPHIC] [TIFF OMITTED] 34148.075

[GRAPHIC] [TIFF OMITTED] 34148.076

[GRAPHIC] [TIFF OMITTED] 34148.077

[GRAPHIC] [TIFF OMITTED] 34148.078

[GRAPHIC] [TIFF OMITTED] 34148.079

[GRAPHIC] [TIFF OMITTED] 34148.080

[GRAPHIC] [TIFF OMITTED] 34148.081

[GRAPHIC] [TIFF OMITTED] 34148.082

[GRAPHIC] [TIFF OMITTED] 34148.083

[GRAPHIC] [TIFF OMITTED] 34148.084

[GRAPHIC] [TIFF OMITTED] 34148.085

[GRAPHIC] [TIFF OMITTED] 34148.086

[GRAPHIC] [TIFF OMITTED] 34148.087

[GRAPHIC] [TIFF OMITTED] 34148.088

[GRAPHIC] [TIFF OMITTED] 34148.089

[GRAPHIC] [TIFF OMITTED] 34148.090

[GRAPHIC] [TIFF OMITTED] 34148.091

[GRAPHIC] [TIFF OMITTED] 34148.092

[GRAPHIC] [TIFF OMITTED] 34148.093

[GRAPHIC] [TIFF OMITTED] 34148.094

[GRAPHIC] [TIFF OMITTED] 34148.095

[GRAPHIC] [TIFF OMITTED] 34148.096

[GRAPHIC] [TIFF OMITTED] 34148.097

[GRAPHIC] [TIFF OMITTED] 34148.098

[GRAPHIC] [TIFF OMITTED] 34148.099

[GRAPHIC] [TIFF OMITTED] 34148.100

[GRAPHIC] [TIFF OMITTED] 34148.101

[GRAPHIC] [TIFF OMITTED] 34148.102

[GRAPHIC] [TIFF OMITTED] 34148.103

[GRAPHIC] [TIFF OMITTED] 34148.104

[GRAPHIC] [TIFF OMITTED] 34148.105

[GRAPHIC] [TIFF OMITTED] 34148.106

[GRAPHIC] [TIFF OMITTED] 34148.107

[GRAPHIC] [TIFF OMITTED] 34148.108

[GRAPHIC] [TIFF OMITTED] 34148.109

[GRAPHIC] [TIFF OMITTED] 34148.110

[GRAPHIC] [TIFF OMITTED] 34148.111

[GRAPHIC] [TIFF OMITTED] 34148.112

[GRAPHIC] [TIFF OMITTED] 34148.113

[GRAPHIC] [TIFF OMITTED] 34148.114

[GRAPHIC] [TIFF OMITTED] 34148.115

[GRAPHIC] [TIFF OMITTED] 34148.116

[GRAPHIC] [TIFF OMITTED] 34148.117

[GRAPHIC] [TIFF OMITTED] 34148.118

[GRAPHIC] [TIFF OMITTED] 34148.119

[GRAPHIC] [TIFF OMITTED] 34148.120

[GRAPHIC] [TIFF OMITTED] 34148.121

[GRAPHIC] [TIFF OMITTED] 34148.122

[GRAPHIC] [TIFF OMITTED] 34148.123

[GRAPHIC] [TIFF OMITTED] 34148.124

[GRAPHIC] [TIFF OMITTED] 34148.125

[GRAPHIC] [TIFF OMITTED] 34148.126

[GRAPHIC] [TIFF OMITTED] 34148.127

[GRAPHIC] [TIFF OMITTED] 34148.128

[GRAPHIC] [TIFF OMITTED] 34148.129

[GRAPHIC] [TIFF OMITTED] 34148.130

[GRAPHIC] [TIFF OMITTED] 34148.131

[GRAPHIC] [TIFF OMITTED] 34148.132

[GRAPHIC] [TIFF OMITTED] 34148.133

[GRAPHIC] [TIFF OMITTED] 34148.134

[GRAPHIC] [TIFF OMITTED] 34148.135

[GRAPHIC] [TIFF OMITTED] 34148.136

[GRAPHIC] [TIFF OMITTED] 34148.137

[GRAPHIC] [TIFF OMITTED] 34148.138

[GRAPHIC] [TIFF OMITTED] 34148.139

[GRAPHIC] [TIFF OMITTED] 34148.140

[GRAPHIC] [TIFF OMITTED] 34148.141

[GRAPHIC] [TIFF OMITTED] 34148.142

[GRAPHIC] [TIFF OMITTED] 34148.143

[GRAPHIC] [TIFF OMITTED] 34148.144

[GRAPHIC] [TIFF OMITTED] 34148.145

[GRAPHIC] [TIFF OMITTED] 34148.146

[GRAPHIC] [TIFF OMITTED] 34148.147

[GRAPHIC] [TIFF OMITTED] 34148.148

[GRAPHIC] [TIFF OMITTED] 34148.149

                                 <all>

</pre></body></html>
